                              -   -.~-~---   .....- -   '"Ii .......




                                                                         NATIONAL SCIENCE FOUNDATION
                                                                        . OFFICE OF INSPECTOR GENERAL
                                                                            OFFICE OF INVESTIGATIONS

                                                                       CLOSEOUT·MEMORANDUM

      Case Number: A09060056                                                                            Page 1 ofl



              A proactive review of employee travel card usage was conducted with a resulting discrepancyl
              concerning.tr~vel reimbursement to an employee's account discovered. After Accounts
              Receivable issued a "Request to Establish Account Receivable" for the amount2 , the account was
              paid by the employee.                                                            .

               Accordingly, this case is closed.




I~




              2




     NSF OlG Fonn 2 (11102)
